@OCKLE

Legal Briefs

Est. 1923
1-800-225-6964 ‘Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street

E-Mail Address:
Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

No.

NOLAN P. ESPINDA, Warden, Director of
the Department of Public Safety for the
State of Hawaii; CLARE CONNORS,
Attorney General of the State of Hawaii,
Petitioners,

v.

ROYCE C. GOUVEIA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 7905 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska ° ‘
My Commission Expires Nov 24, 2020 a

Notary Public Affiant

 

 

38608
